 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




Medicare Beneficiary Experiences with
         Home Health Care




                     Inspector General

                         JULY 2001
                       OEI-02-00-00560
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public.
The inspection reports provide findings and recommendations on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI's New York Regional Office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                         HEADQUARTERS

Demetra Arapakos, Team Leader
                 Tricia Davis, Program Specialist

Miriam Gareau, Lead Analyst
                   Brian Ritchie, Director, Technical Support Staff

Patricia Banta 
                               Barbara Tedesco, Mathematical Statistician

Thomas Zimmerman





      To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
         Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei
                         EXECUTIVE SUMMARY

PURPOSE

         To examine the experiences of Medicare beneficiaries with accessing and receiving home
         health care.

BACKGROUND

         This inspection is part of a current series of four Office of Inspector General inspections
         about Medicare home health care. Access to Home Health Care After Hospital
         Discharge 2001, OEI-02-01-00180, assesses the effects of the prospective payment
         system on access to home health care for Medicare beneficiaries who are discharged from
         the hospital. Medicare Home Health Care - Beneficiaries from the Community, OEI-02-
         01-00070, looks at access to home health care for Medicare beneficiaries who have not
         recently been in the hospital. We are also conducting a study that examines physician
         practices in prescribing, certifying, and monitoring Medicare home health services.

         Home health services consist of skilled nursing, physical, occupational, and speech
         therapy, as well as social work and home health aide services, all furnished in a patient’s
         home. Medicare will pay for home health care only if the service is ordered by a
         physician and is reasonable and necessary for the treatment of a homebound patient’s
         illness or injury.

         After a history of increases in the early 1990's, Medicare home health expenditures have
         dropped since 1998. A number of factors have contributed to the decrease including the
         new payment system created by the Balanced Budget Act of 1997, which changed home
         health agency payment from a cost-based method to a prospective payment system of
         fixed, predetermined rates.

         We combined two methods for this inspection: a beneficiary mail survey of 713 Medicare
         home health beneficiaries who began a new episode of home health care in January 2001
         and follow-up telephone interviews with a sub-sample of 30 beneficiaries.

FINDINGS

Beneficiaries are positive about their Medicare home health care

         Virtually all Medicare beneficiaries (93 percent) who began receiving home health care
         in January 2001 are satisfied with their care. Satisfaction levels are high among all
         groups of Medicare recipients. Levels do not differ among beneficiaries with different

Medicare Beneficiary Experiences with Home Health   i                         OEI-02-00-00560
         diagnoses nor between those living in urban and rural locations. Also, Medicare
         beneficiaries generally report a positive relationship with their home health caregivers.
         Most believe their caregivers treat them well and say they are not concerned for their
         safety when workers are in their homes. Just a few beneficiaries (four percent) report
         concerns about the quality or adequacy of their home health care. They report such
         problems as missed appointments or a lack of consistency among home health workers.

Medicare beneficiaries report almost no difficulty gaining access to care

         Almost none of the Medicare beneficiaries who began a new episode of home health
         care in January 2001 experienced problems accessing care. In fact, only 13 of 501
         respondents report any access problems. Nearly all of these 13 respondents were not in
         the hospital immediately before beginning home health care. About half of them had
         difficulty finding a home health agency and the other half report that they were refused
         by an agency. Our study, however, only includes those Medicare beneficiaries who
         successfully obtained home health care. We are not able to report on the experiences of
         those who were unable to obtain any home health services.

         Although only a few had access problems, almost half of all beneficiaries say that they
         did not have multiple agencies to choose from. They also report that their personal
         involvement in planning for their own care is limited. They say it is their doctor who
         makes most of the decisions about their care.

Some beneficiaries would like more services

         Twenty percent of beneficiaries believe they are not receiving all of the services they
         need. They fall into three categories: 1) those who are no longer receiving any home
         health services but believe they still need care; 2) those who want more of a specific
         service they are already receiving; and 3) those who want a specific service they are not
         currently receiving. These beneficiaries most often request home health aide services or
         physical therapy.

         Not all of the home health services beneficiaries want are covered by Medicare. For
         example, beneficiaries are not eligible for Medicare home health aide services unless
         they are also receiving a skilled service, such as skilled nursing or physical therapy.
         Some beneficiaries request more aide services to help with bathing, feeding, or household
         chores. If this is their only care need, they are not eligible for aide services under the
         Medicare benefit. Also, Medicare only covers home health care when the service is
         medically necessary. Therefore, beneficiaries such as one woman who wants more
         physical therapy for palliative care may not be eligible for Medicare coverage of the
         therapy.




Medicare Beneficiary Experiences with Home Health   ii                       OEI-02-00-00560
CONCLUSION

         As the Office of Inspector General continues to monitor the Medicare home health care
         program after the implementation of the prospective payment system, it is noteworthy
         that Medicare beneficiaries are pleased with their care. Beneficiaries who entered care in
         January 2001 report positive experiences both accessing and receiving Medicare home
         health services. As noted earlier we are currently preparing three other reports that
         examine beneficiary access to care and the role of the physician in home health care.




Medicare Beneficiary Experiences with Home Health   iii                      OEI-02-00-00560
                           TABLE OF CONTENTS


                                                                                                                          PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS

          Beneficiaries are positive about their home health . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Beneficiaries report almost no difficulty gaining access . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Some beneficiaries would like more services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


APPENDICES


          A: Recent Office of Inspector General home health inspections . . . . . . . . . . . . . . . . . . 10


          B: Confidence interval for key variables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          C: Non-respondent analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12





Medicare Beneficiary Experiences with Home Health                iv                                   OEI-02-00-00560
                                    INTRODUCTION

PURPOSE

         To examine the experiences of Medicare beneficiaries with accessing and receiving home
         health care.


BACKGROUND

         This inspection is part of a current series of four Office of Inspector General inspections
         about Medicare home health care. Access to Home Health Care After Hospital
         Discharge 2001, OEI-02-01-00180, assesses the effects of the prospective payment
         system on access to home health care for Medicare beneficiaries who are discharged from
         the hospital. Medicare Home Health Care - Beneficiaries from the Community, OEI-02-
         01-00070, looks at access to home health care for Medicare beneficiaries who have not
         recently been in the hospital. We are also conducting a study that examines physician
         practices in prescribing, certifying, and monitoring Medicare home health services. See
         Appendix A for a list of other recent OIG reports relating to home health care.

Medicare Home Health Care

         Home health services consist of part-time or intermittent skilled nursing, physical,
         occupational, and speech therapy, and certain related services, including social work and
         home health aide services, all furnished in a patient’s home. Services are typically
         provided by registered nurses, therapists, social workers, or home health aides employed
         by or under contract with a home health agency. These agencies can be freestanding or
         hospital-based and are classified as not-for-profit, proprietary, or governmental.

         Medicare will pay for home health care only if the service and the beneficiary meet
         certain criteria. The services must be ordered by a physician and be reasonable and
         necessary for the treatment of the patient’s illness or injury. Further, the beneficiary must
         be eligible for Medicare coverage of home health services. In order to be eligible, a
         beneficiary must be homebound, under the care of a physician who has established a plan
         of care, and need at least one of the following intermittent skilled services: skilled
         nursing care, physical therapy, speech language pathology, or continued occupational
         therapy. At the start of care occupational therapy alone does not constitute a skilled
         need; however, after care has begun and other skilled services are discontinued,
         continued occupational therapy is a skilled need. There are no specific limits on the
         number of visits or length of coverage and no co-payments or deductibles.



Medicare Beneficiary Experiences with Home Health   1                          OEI-02-00-00560
         A beneficiary is considered homebound when leaving home requires a considerable and
         taxing effort. The Benefits Improvement and Protection Act of 2000 (BIPA) clarified the
         definition, stating that a person can leave his or her home for certain purposes such as
         attending adult day care activities or religious services and still qualify for Medicare
         home health services.

Trends in Medicare Home Health Care

         After a history of increases, Medicare home health expenditures have dropped since
         1998. Between fiscal years 1991 and 1997, home health care annual expenditures rose
         from $4.7 billion1 to $17.6 billion.2 This was due to an increase in both number of
         beneficiaries receiving home health services and the number of visits they received. In
         1998, however, spending for home health services began to drop and in fiscal year 1999
         was $8.7 billion.3

         A number of factors have contributed to the recent decrease in Medicare home health
         spending. These include the prospective payment limits created by the Balanced Budget
         Act of 1997 (BBA) as well as several initiatives that were implemented in response to
         concerns about fraud and abuse. Specifically, the Health Insurance Portability and
         Accountability Act substantially increased financial support to control fraud and abuse by
         home health agencies.

Prospective Payment System

         The Balanced Budget Act of 1997 changed the way Medicare pays for home health care.
         The law requires a payment change from a cost-based method to a prospective payment
         system (PPS) of fixed, predetermined rates for home health services. The new
         prospective payment system went into effect nationally on October 1, 2000. Before PPS
         was implemented home health agencies were reimbursed under an interim payment
         system (IPS) beginning in October 1997.

         Under PPS, home health agency payments are based on a 60-day episode that is adjusted
         according to case-mix. The case-mix is based on data elements from the patient’s
         medical assessment (Outcome and Assessment Information Set) and the projected
         number of therapy hours. The data elements capture information about the patient’s
         clinical severity, functional severity and service utilization.

         Generally, agencies will receive two payments for each episode. They receive the first
         payment at the beginning of the episode, after they submit a Request for Anticipated


         1
             1992 HCFA Statistics, U.S. Department of Health and Human Services

         2
             1998 HCFA Statistics, U.S. Department of Health and Human Services

         3
             Health Care Financing Administration, U.S. Department of Health and Human Services

Medicare Beneficiary Experiences with Home Health       2                             OEI-02-00-00560
         Payment (RAP), and the second payment when they submit a claim at the end of the
         episode. The RAP contains a code that represents the payment category, or Home Health
         Resource Group (HHRG), of the beneficiary’s episode. The claim includes line-item
         detailing of the services the agency provided.

METHODOLOGY

         We combined two methods for this inspection: a beneficiary mail survey and follow-up
         telephone interviews.

Sample Selection

         Using the Health Care Financing Administration National Claims History File, we
         selected a simple random sample of 713 Medicare home health beneficiaries. Thirteen of
         these were not useable because of bad addresses. Our universe included all Medicare
         beneficiaries who:

                   C         started a new episode of home health care between January 7 and
                             January 13, 2001 and
                   C         had a RAP submitted to HCFA by January 31, 2001.

         We excluded from the universe beneficiaries who were deceased or resided in Guam and
         Puerto Rico. We defined a new home health episode as any episode where the date of the
         admission on the RAP was the same as the first date of service. This does not include
         episodes that renew services for the same diagnosis. The sample includes beneficiaries
         with a hospital stay immediately prior to starting home health care and those coming
         from the community without a hospital stay.

Beneficiary Mail Survey

         We sent a self-administered mail questionnaire to the 700 sample beneficiaries with a
         usable address. We also sent pre-notification letters, follow-up postcards, and, to non-
         respondents, a second questionnaire. We encouraged our sample beneficiaries to ask for
         the assistance of a family member or friend in filling out the questionnaire. Six
         beneficiaries completed the survey over the telephone with OIG staff.

         Beneficiaries responded to the questionnaire during March and April, 2001.
         Approximately two-thirds of the respondents had completed their most recent home
         health episode at the time of the survey.

         We received 530 responses, for a response rate of 74 percent. Of the 530:

         C         501 beneficiaries completed the survey and indicated that they had received home
                   health care;

Medicare Beneficiary Experiences with Home Health    3                         OEI-02-00-00560
         C	        29 indicated that they had not received any home health care since January 1,
                   2001.

         We did not consider these 29 in our analysis of the survey data. We plan to follow-up
         with these beneficiaries after the final claims for this time period are available.

Follow-up Telephone Interviews

         In addition, we conducted follow-up telephone interviews with a purposive sub-sample of
         30 beneficiaries. These 30 beneficiaries were selected because their responses to the
         questionnaire indicated some problems with the care they received. Specifically, they
         either had difficulty accessing or receiving care. During the follow-up interviews we
         spoke to either the beneficiaries or family members about their concerns.

Limitations

         There are two limitations to our methodology. First, we pulled our sample from RAPs
         rather than final claims in order to minimize the length of time between when the
         beneficiary started care and completed the survey. However, a RAP requests anticipated
         payment for services the agency plans to provide in the future. It is not a claim for
         services already provided. Consequently, our sample may have included some
         beneficiaries who did not actually receive home health services in January. Second, our
         sample included only beneficiaries who were accepted as a patient by a home health
         agency. Therefore, we are not able to report on the experiences of beneficiaries who
         were never able to obtain home health care.


         This inspection was conducted in accordance with the Quality Standards for
         Inspections issued by the President’s Council on Integrity and Efficiency.




Medicare Beneficiary Experiences with Home Health   4                         OEI-02-00-00560
                                              FINDINGS

Beneficiaries are positive about their Medicare home health care

Ninety-three percent are satisfied with their home health care

         Virtually all Medicare beneficiaries (93 percent) who began receiving home health care
         in January 2001 are satisfied with their care. In fact, 79 percent are very satisfied. (See
         Graph 1 below.)

                                                   Graph 1
                                        Medicare Beneficiary Satisfaction
                                            with Home Health Care




                                                           Source: Home health beneficiary survey, 2001

         Satisfaction is high among all groups of Medicare home health recipients. Satisfaction
         levels do not differ among beneficiaries with different diagnoses nor between those living
         in urban and rural locations. Also, beneficiaries discharged from the hospital prior to
         starting home health care and those directly coming from the community are equally
         satisfied, as are beneficiaries both with and without a prior home health experience.


Medicare Beneficiary Experiences with Home Health      5                            OEI-02-00-00560
         Most beneficiaries report the care they are receiving in 2001 compares favorably to care
         they have received in past years. More than half of beneficiaries had Medicare home
         health care prior to their current episode. Most (85 percent) rate their current services
         about the same or better than their prior services.

         Furthermore, many beneficiaries report being grateful for the services they receive.
         Almost one quarter volunteer complementary comments about their home health care.
         One beneficiary writes, “I sincerely appreciate the help that I received from this Medicare
         program.” Another comments, “I could never have managed without the home health
         care, since I live alone.”

Beneficiaries generally have good relationships with their caregivers

         Medicare beneficiaries generally report a positive relationship with their home health
         caregivers. Most (95 percent) believe that their home health workers treat them well, and
         just as many say they have no concern for their personal safety or for the safety of their
         property when these workers are in their home. Also, several beneficiaries praise the
         caring attitude and skill of their caregivers. One beneficiary’s family member writes,
         “We have only the highest regard for the persons who visited our father. Each person
         was professional, friendly, helpful and sympathetic to our needs.” Another writes that
         “the therapist taught me to do my therapy. She helps me and makes sure I do it correctly.
          [She is] pleasant, personable, and professional.”

Just a few report concerns about the quality or adequacy of their care

         Four percent of beneficiaries are concerned about the quality or adequacy of their home
         health care. These few respondents express various concerns. Most commonly, they
         report that their home health worker either misses or is late for appointments. Others in
         this group say that the agency is not providing the services that were ordered. Lastly, a
         few say that their Medicare home health services stopped abruptly while they believe
         they still needed care. During follow-up telephone interviews, one says, “The doctor said
         I needed [care] for four months and I only got it for one.”

         Several beneficiaries also express concern about the lack of consistency among their
         home health workers. For example, the wife of one beneficiary says that it is physically
         taxing for her to train each new home health worker about her husband’s special needs
         and “every other week it was someone different.” In fact, about one third of all
         beneficiaries receiving skilled nursing care say that the same nurse does not usually visit
         each time. Similarly, twenty percent say the same about their home health aides.

         A small number of beneficiaries (four percent) report having made formal complaints in
         the past about their concerns. They made almost half of these complaints to their home
         health agency. Most complaints were specifically about their home health workers.
         Only about one third of these beneficiaries report that they are satisfied with the way
         their complaint was resolved.



Medicare Beneficiary Experiences with Home Health   6                         OEI-02-00-00560
         Finally, a small number of beneficiaries (five percent) with prior home health experience
         say the care they are receiving now is worse than past care; they cite problems with the
         quality or frequency of services. Some say that their home health caregivers did a better
         job in past years, while others report that in the past they obtained more home health
         services, such as a greater number of nursing and aide visits.


Medicare beneficiaries report almost no difficulty gaining access to
care

Very few beneficiaries report access problems

         Almost none of the Medicare beneficiaries who began a new episode of home health
         care in January 2001 experienced problems accessing care. In fact, only 13 of 501
         respondents, most of whom did not have a hospital stay before beginning care, report any
         access problems. About half of these 13 say they had difficulty finding an agency. The
         other half say they were refused by an agency. Some of these problems appear to be
         related to the complexity of the patient’s care. For example, one writes that her “care is
         complicated and most agencies don’t want me.” Beneficiaries also attribute access
         problems to inadequate agency staffing levels. In a telephone interview, another says she
         had access difficulty because “the agency did not have the staff to do wound care.”

         Although very few are having difficulty finding a home health agency, almost half of all
         beneficiaries report that they do not have more than one agency to choose from. In fact,
         only one third of beneficiaries discharged from the hospital had a choice of agency.
         Nevertheless, almost all of those who were able to choose an agency are receiving care
         from their first choice. Medicare requires that hospitals provide all beneficiaries with a
         choice of home health agencies; we do not know if these beneficiaries do not report a
         choice because they were not given one, there is only one agency in their area, or for
         some other reason .

Beneficiaries’ involvement in planning for care is limited

         Beneficiaries receive help in planning for their home health care. Over one quarter report
         not being involved at all in the planning for their home health care, and about 40 percent
         say they were only somewhat involved. Only one in ten report that they were able to find
         and choose a home health agency without help.

         Most beneficiaries report that it is their doctor who makes most of the decisions about
         their care. In fact, 79 percent say that it is their doctor, rather than their family or social
         worker, who decided when they needed home health care. Most beneficiaries (54
         percent) also find out about their home health agency from their doctor, rather than from
         someone they know or the hospital discharge planner. In addition, when beneficiaries
         have to choose between two or more agencies, they most commonly get help from their
         doctor.



Medicare Beneficiary Experiences with Home Health   7                            OEI-02-00-00560
Some beneficiaries would like more services

Twenty percent of beneficiaries believe they are not receiving all of the services
they need

         Beneficiaries who believe they are not getting all of the home health care that they need
         fall into three categories: 1) those who are no longer receiving any home health services
         but believe they still need care; 2) those who want more of a specific service they are
         already receiving; and 3) those who want a specific service they are not currently
         receiving. Overall, these beneficiaries request home health aide services most frequently,
         followed by physical therapy. Some beneficiaries report needing specific care, such as a
         nurse to check blood sugar levels or additional weeks of physical therapy. Other
         beneficiaries’ needs are more general, such as needing more help for activities like
         bathing or household chores.

However, not all of these services are covered by Medicare

         Not all of the home health aide services beneficiaries want are covered by Medicare.
         Medicare only covers an aide when the patient is also receiving a skilled service, such as
         skilled nursing or physical therapy. Without one of these needs, Medicare does not cover
         an aide to help with personal care. In several of our telephone interviews, beneficiaries
         request more aide services to help with bathing, feeding, or household chores. If this is
         their only care need, they are not eligible for aide services under the Medicare benefit.

         Further, Medicare only covers home health care when the service is medically necessary.
         For example, physical therapy is considered medically necessary only when the therapist
         is either teaching the patient a maintenance program or the patient has rehabilitation
         goals that can be reached in a predictable period of time. Therefore, beneficiaries such as
         one woman who wants more physical therapy for palliative care because she is still in
         pain may not be eligible for Medicare coverage of the therapy.

         A few beneficiaries express discontent with the Medicare home health benefit. For
         example, the daughter of one beneficiary writes, “ because a patient has Alzheimer’s
         Disease but no other health conditions that require skilled nursing, does not mean that
         home health aides are not necessary.” Another says that she needed more physical
         therapy but it had stopped because she “wasn’t progressing the way (she) should.”
         Several other beneficiaries comment that they need help to pay for their medications and
         other personal products, such as incontinent pads, neither of which are covered by
         Medicare.




Medicare Beneficiary Experiences with Home Health   8                         OEI-02-00-00560
                                        CONCLUSION

         As the Office of Inspector General continues to monitor the Medicare home health care
         program after the implementation of the prospective payment system, it is noteworthy
         that Medicare beneficiaries are pleased with their care. Beneficiaries who entered care in
         January 2001 report positive experiences both accessing and receiving Medicare home
         health services. As noted earlier we are currently preparing three other reports that
         examine beneficiary access to care and the role of the physician in home health care.




Medicare Beneficiary Experiences with Home Health   9                        OEI-02-00-00560
                                                                              APPENDIX A


                           Recent Office of Inspector General

                               Home Health Inspections


         Office of Inspector General, US Department of Health and Human Services, “Medicare
         Beneficiary Access to Home Health Agencies: 2000,” OEI-02-00-00320, September
         2000.

         Office of Inspector General, US Department of Health and Human Services, “Adequacy
         of Home Health Services: Hospital Readmission and Emergency Room Visits,” OEI-02-
         99-00531, September 2000.

         Office of Inspector General, US Department of Health and Human Services, “ Medicare
         Home Health Agency Survey and Certification Deficiencies,” OEI-02-99-00532,
         September 2000.

         Office of Inspector General, US Department of Health and Human Services, “Medicare
         Beneficiary Access to Home Health Agencies,” OEI-02-99-00530, October 1999.




Medicare Beneficiary Experiences with Home Health   10                  OEI-02-00-00560
                                                                               APPENDIX B

         Confidence Intervals for Key Variables
We calculated confidence intervals for nine key variables. The point estimate and 95%
confidence interval are given for each of the following:

 Key Variables                                                     Point         Confidence
                                                                  Estimate        Interval
 Medicare home health beneficiaries who are satisfied with
 their care
            Very satisfied                                           79%             +/- 3.5
            Somewhat satisfied                                       14%             +/- 3.1


 Beneficiaries who believe that their home health workers
 treat them well                                                     95%             +/- 1.9


 Beneficiaries who are concerned about the quality of their
 home health care                                                     4%             +/- 1.9


 Beneficiaries who say that they had no difficulty finding an
 agency to accept them as a patient.                                 93%             +/- 1.9


 Beneficiaries who report they were not refused by an
 agency                                                              85%              +/-3.1


 Beneficiaries who do not have more than one agency to
 choose from                                                         46%             +/- 4.4


 Beneficiaries who report that their doctor decided they
 needed home health care                                             81%             +/- 3.5


 Beneficiaries who report not being involved in the planning
 for their home health care                                          29%             +/- 4.0


 Beneficiaries who believe they are not getting all of the
 home health care that they need                                     20%             +/- 3.5



Medicare Beneficiary Experiences with Home Health   11                   OEI-02-00-00560
                                                                                   APPENDIX C

                                   Non-Respondent Analysis


         We tested for the presence of any non-response bias in our survey results. For this
         inspection, the non-respondents are the 183 sample beneficiaries from whom we did not
         receive a completed questionnaire. From our sample of 713, we received a total of 530
         responses. Of these, 501 beneficiaries indicated they had received services. We consider
         these beneficiaries respondents. The other 29 beneficiaries indicated that they had not
         received services. We excluded these 29 from this analysis.

         We used a Chi-Square test to compare our respondents and non-respondents on key
         demographic variables. These variables were gender, race4, and urban/rural location.5
         In order for the results to be statistically significant at the 95 percent confidence level, the
         Chi-square value must be higher than 3.84 with 1 degree of freedom. The results of the
         Chi-square analysis are presented in Tables A, B, and C.

         Table A shows no statistically significant differences between respondents and non-
         respondents for gender. The table also includes the response rates for both males and
         females.

         Table B, however, show a statistically significant difference between respondents and
         non-respondents for race. In order to test whether this difference introduced bias, we
         conducted further analysis on the difference between the race variable for two key survey
         questions. Assuming the non-respondents and respondents from the same group of
         beneficiaries responded to the two key questions at the same rate, we calculated a
         hypothetical point estimate for these two questions for all beneficiaries. This calculation
         gave hypothetical point estimates that were the same as the estimates reported. Seventy-
         nine percent of beneficiaries said they are very satisfied with their home health care, and
         20 percent say they are not getting all the services they need.

         Table C shows a statistically significant difference between respondents and non-
         respondents for urban and rural location. We conducted the same analysis as described
         above for the urban/rural variable. The estimate for the percentage of beneficiaries who
         are very satisfied with their care is slightly lower - 78 percent as opposed to 79 percent.
         The new estimate on the percentage who say they are not getting all the services they

         4
                   We divided race into two categories, white and non-white, in order to assure that
                   the numbers in each cell would large enough for meaningful comparisons.
         5	
                   We assigned beneficiaries’ urban/rural status based on the zip code of their
                   mailing address and the 1990 Census data.

Medicare Beneficiary Experiences with Home Health   12                           OEI-02-00-00560
         need is higher - 21 percent rather than 20 percent. These differences are not statistically
         significant.

         Given the results f this analysis, we believe that the inspection findings accurately
         represent the experiences of the Medicare beneficiaries in our sample. We therefore
         believe that our survey findings can be generalized to the universe of beneficiaries who
         began receiving Medicare home health services in January, 2001.



                                                      Table A
                                              GENDER BY RESPONSE


                                                       Non-
                             Respondents            respondents          Total           Response rate
 Male                          194     (39%)         56    (31%)          250                  77%
 Female                        307     (61%)        127    (69%)          434                  71%
 Total                         501                  183                   684                  73%
 Chi-square = 3.8123
 Degree of freedom = 1


                                                      Table B
                                                RACE BY RESPONSE


                                                       Non-
                             Respondents            respondents          Total*          Response rate
 White                         438     (88%)        142    (77%)          580                  76%
 Other                           60    (12%)         40    (23%)          100                  60%
 Total                        498                   182                   680                  73%
 Chi-square = 10.4777
  Degree of freedom = 1                                            * No race reported for 4 beneficiaries




Medicare Beneficiary Experiences with Home Health         13                       OEI-02-00-00560
                                                      Table C
                                         URBAN/RURAL BY RESPONSE


                                                       Non-
                             Respondents            respondents           Total*          Response rate
 Rural                         143     (30%)         32    (21%)            162                 88%
 Urban                         328     (70%)        130    (79%)            471                 70%
 Total                         471                  162                    633                  74%
 Chi-square = 6.7810
  Degree of freedom = 1                                   *No urban/rural designation for 51




Medicare Beneficiary Experiences with Home Health         14                        OEI-02-00-00560
